No. 20A-_____
IN THE SUPREME COURT OF THE UNITED STATES

JILL SWENSON, MELODY MCCURTIS, MARIA NELSON, BLACK LEADERS
ORGANIZING FOR COMMUNITIES, AND DISABILITY RIGHTS WISCONSIN,
Applicants,
v.
MARGE BOSTELMANN, JULIE M. GLANCEY, ANN S. JACOBS, DEAN
KNUDSON, ROBERT F. SPINDELL, JR., and MARK L. THOMSEN,
Commissioners of the Wisconsin Elections Commission; MEAGAN WOLFE,
Administrator of the Wisconsin Elections Commission,
Respondents,
WISCONSIN LEGISLATURE, REPUBLICAN NATIONAL COMMITTEE,
and REPUBLICAN PARTY OF WISCONSIN,
Intervenors.
PROOF OF SERVICE
I, Anton Metlitsky, a member of the bar of this Court, hereby certify that, on
this 13th day of October 2020, all parties required by the Rules of this Court to be
served have been served. One copy of the Emergency Application of Jill Swenson,
Melody McCurtis, Maria Nelson, Black Leaders Organizing for Communities, and
Disability Rights Wisconsin to Vacate the Stay in the above-captioned case was
deposited with FedEx, a third-party courier, for delivery to counsel on the attached
service list. I further certify that an electronic copy of the brief has been emailed to
counsel at the email addresses included on the attached service list.

s/ Anton Metlitsky__________
Anton Metlitsky

Service List for 20A-_______
Dixon Gahnz
Daniel P. Bach
Daniel Spector Lenz
Terrence Polich
LAWTON & CATES SC
Suite 201
345 W. Washington Avenue
Madison, WI 53703
dgahnz@lawtoncates.com
Counsel for Marge Bostelmann, Julie M.
Glancey, Ann S. Jacobs, Dean Knudson, Robert
F. Spindell, Jr., Mark L. Thomsen, and
Meaghan Wolfe
Robert E. Browne, Jr.
Kevin M. LeRoy
Misha Tseytlin
Sean T.H. Dutton
TROUTMAN PEPPER HAMILTON
SANDERS LLP
Suite 3900
227 W. Monroe Street
Chicago, IL 60606
robert.browne@troutman.com
Scott A. Keller, Attorney
BAKER BOTTS LLP
700 K Street, NW
Washington, DC 20001
scott.keller@bakerbotts.com
Counsel for the Wisconsin State Legislature
Patrick Strawbridge
CONSOVOY MCCARTHY PLLC
8th FL S. PMB, #706
Ten Post Office Square
Boston, MA 02109
patrick@consovoymccarthy.com

Jeffrey M. Harris
CONSOVOY MCCARTHY PLLC
Suite 700
1600 Wilson Boulevard
Arlington, VA 22209
jeff@consovoymccarthy.com
Counsel for the Republican National
Committee and the Republican Party of
Wisconsin

